TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Measurable Progress Has Been Made in
                  Addressing Federal Financial Management
                 Improvement Act Noncompliance; However,
                       Significant Challenges Remain



                                           June 4, 2010

                              Reference Number: 2010-10-065




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                        HIGHLIGHTS


MEASURABLE PROGRESS HAS BEEN                               associated with achieving substantial
MADE IN ADDRESSING FEDERAL                                 compliance.
FINANCIAL MANAGEMENT                                       WHAT TIGTA FOUND
IMPROVEMENT ACT NONCOMPLIANCE;
HOWEVER, SIGNIFICANT CHALLENGES                            The IRS has made measurable progress in
REMAIN                                                     addressing the issues causing its
                                                           noncompliance with the FFMIA. However, its
                                                           financial management systems still do not
Highlights                                                 comply with FFMIA requirements. The IRS
                                                           informed us that it does not believe it will
Final Report issued on June 4, 2010                        become compliant with the FFMIA until
                                                           approximately November 2014, pending
                                                           successful implementation of its strategy to
Highlights of Reference Number: 2010-10-065
                                                           modernize the processes used to account for
to the Internal Revenue Service Chief
                                                           the records of individual taxpayers.
Financial Officer and Chief Technology Officer.
                                                           Our review also identified that the IRS continues
IMPACT ON TAXPAYERS                                        to experience difficulties in developing resource
The Federal Financial Management                           estimates for remediation actions related to
Improvement Act (FFMIA) remediation plan is                information security. TIGTA reported in two
a critical part of the Internal Revenue Service’s          prior audits that some resource estimates were
(IRS) efforts to bring its financial management            unsupported and based on outdated information.
systems into compliance with the FFMIA and                 TIGTA continued to find similar issues in this
to provide reliable and timely financial data.             review.
Overall, the IRS still faces significant                   Finally, the IRS reported 30 open remedial
challenges in its efforts to comply with the               actions in its September 30, 2009, FFMIA
FFMIA. In addition, our analysis of the IRS’               remediation plan. Our review of the 30 open
September 30, 2009, FFMIA remediation plan                 remediation actions indicated that the IRS did
found that the IRS continues to experience                 not miss any intermediate target dates.
difficulties in developing resource estimates for
remediation actions. For example, 5 resource               WHAT TIGTA RECOMMENDED
estimates totaling $84.3 million were not
supported by detailed and verifiable                       TIGTA recommended that the Chief Financial
documentation. Complete and reliable                       Officer, in coordination with the Chief
financial information is critical to the IRS’ ability      Technology Officer, ensure that incomplete and
to accurately report on the results of its                 unsupported information identified during our
operations to both internal and external                   review be updated. In addition, the Chief
stakeholders, including taxpayers.                         Financial Officer should develop standard
                                                           documentation guidelines for resource estimates
WHY TIGTA DID THE AUDIT                                    reported in the IRS remediation plan.
The overall objective of this review was to                The IRS agreed with both recommendations.
report to Congress, as required by the FFMIA,              Specifically, the IRS stated that its
any instances of and reasons for missed                    March 31, 2010, FFMIA remediation plan has
intermediate target dates established in the               been reconciled and annotated with the
IRS’ FFMIA remediation plan for the period                 authoritative supporting documentation. The
January 1, 2009, through September 30, 2009.               IRS also plans to develop standardized
In addition, TIGTA evaluated the effectiveness             guidance that requires more specific
of the remedial actions taken by the IRS during            documentation standards for remediation plan
the period January 1, 2005, through                        estimates.
September 30, 2009, in resolving the
noncompliance reported in the FFMIA
remediation plans and assessed the challenges
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 4, 2010


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Measurable Progress Has Been Made in
                                 Addressing Federal Financial Management Improvement Act
                                 Noncompliance; However, Significant Challenges Remain
                                 (Audit # 200910027)

 This report presents the results of our review of the Federal Financial Management Improvement
 Act of 1996 (FFMIA). 1 The overall objective of this review was to report to Congress, as
 required by the FFMIA, any instances of and reasons for missed intermediate target dates
 established in the Internal Revenue Service’s (IRS) FFMIA remediation plan for the period
 January 1, 2009, through September 30, 2009. In addition, we evaluated the effectiveness of the
 remedial actions taken by the IRS during the period January 1, 2005, through
 September 30, 2009, in resolving the noncompliance reported in the FFMIA remediation plans
 and assessed the challenges associated with achieving substantial compliance. This review was
 included in our Fiscal Year 2009 Annual Audit Plan and addresses the major management
 challenge of Leveraging Data to Improve Program Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.




 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                          Measurable Progress Has Been Made in Addressing Federal
                                  Financial Management Improvement Act
                           Noncompliance; However, Significant Challenges Remain




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Intermediate Target Dates Were Extended for Some Actions......................Page 4
          The Internal Revenue Service Has Experienced Difficulties
          in Developing Remediation Actions Related to Information
          Security .........................................................................................................Page 5
                    Recommendations 1 and 2: ................................................Page 6


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Schedule of the Internal Revenue Service’s
          Remediation Actions From 2005 Through 2009 ..........................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 15
         Measurable Progress Has Been Made in Addressing Federal
                 Financial Management Improvement Act
          Noncompliance; However, Significant Challenges Remain




                      Abbreviations

CADE 2          Customer Account Data Engine 2
CFO             Chief Financial Officer
FFMIA           Federal Financial Management Improvement Act of 1996
IRS             Internal Revenue Service
                      Measurable Progress Has Been Made in Addressing Federal
                              Financial Management Improvement Act
                       Noncompliance; However, Significant Challenges Remain




                                              Background

The Federal Financial Management Improvement Act of
1996 (FFMIA) 1 was established to advance Federal                As of November 2009, the
                                                                Government Accountability
financial management by ensuring that Federal financial       Office continued to report that
management systems provide accurate, reliable, and            the IRS’ financial management
timely financial management information to the                 systems do not comply with
Government’s managers. Further, this disclosure should             FFMIA requirements.
be done on a basis that is uniform across the Federal
Government from year to year by consistently using
professionally accepted accounting standards. Specifically, FFMIA Section 803 (a) requires each
agency to implement and maintain systems that comply substantially with:
    •    Federal Government financial management systems requirements.
    •    Applicable Federal Government accounting standards.
    •    The United States Government Standard General Ledger at the transaction level.
If the agency’s financial systems do not comply, the agency is required to develop a remediation
plan that describes the resources, remedies, and intermediate target dates for achieving compliance
and to file the plan with the Office of Management and Budget. In addition, FFMIA
Section 804 (b) requires that agency Inspectors General report to Congress instances when and
reasons why an agency has not met the intermediate target dates established in its remediation plan.
Because the Government Accountability Office has reported noncompliance with the requirements
of the FFMIA in its audits of the Internal Revenue Service’s (IRS) annual financial statements, the
IRS has been required to prepare and maintain a remediation plan.
As of November 2009, the Government Accountability Office continued to report 2 that the IRS’
financial management systems do not comply with FFMIA requirements. Specifically, the IRS
does not post tax-related transactions in conformance with Federal Government requirements and its
records lack adequate traceability for taxes receivable.3 In addition, the IRS has material
weaknesses in its internal controls over both information security and unpaid assessments. The
information security material weakness compromises the accuracy and availability of the IRS’
financial information and places sensitive information regarding IRS operations and taxpayers at
risk. The unpaid assessments material weakness impacts the IRS’ ability to effectively manage

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  Financial Audit: IRS’s Fiscal Years 2009 and 2008 Financial Statements (GAO-10-176, dated November 2009).
3
  Federal taxes receivable consist of tax assessments, penalties, and interest not paid or abated which were agreed to
by the taxpayer and the IRS or upheld by the courts.
                                                                                                              Page 1
                   Measurable Progress Has Been Made in Addressing Federal
                           Financial Management Improvement Act
                    Noncompliance; However, Significant Challenges Remain



these assessments. For example, the Government Accountability Office reported in
November 2009 that the IRS lacks a subsidiary ledger for unpaid assessments that would allow it to
produce reliable and timely financial management information.
Chief Financial Officer (CFO) management stated that the IRS implemented a new accounting
system in January 2010, the Redesign Revenue and Accounting Control System, which will
allow it to post transactions in compliance with Federal Government requirements, support
traceability for revenue transactions, and further assist it in becoming compliant with the
FFMIA.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office of
the CFO during the period August 2009 through January 2010. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                             Page 2
                     Measurable Progress Has Been Made in Addressing Federal
                             Financial Management Improvement Act
                      Noncompliance; However, Significant Challenges Remain




                                      Results of Review

The IRS has made measurable progress in addressing the issues causing its noncompliance with
the FFMIA. For example, the Government Accountability Office reported in November 2009
that the IRS substantially completed developing the capability to trace its revenue and refund
transactions from its general ledger to supporting detailed transaction information. This
improvement enhances the reliability of the information the IRS reports regarding these types of
transactions. In addition, the IRS has completed a total of 128 remedial actions since
January 1, 2005, and had 30 open remedial actions remaining in its September 30, 2009, FFMIA
remediation plan.
However, the IRS’ financial management systems still do not comply with FFMIA requirements.
The IRS informed us that it does not believe it will become compliant with the FFMIA and
address the material weakness relating to unpaid assessments until approximately
November 2014, pending successful implementation of the Customer Account Data Engine 2
(CADE 2) strategy. 4 The CADE 2 strategy, as designed, will allow the IRS to modernize the
processes it uses to account for the records of individual taxpayers and create a single overall
system of record. In addition, the time to process and update individual taxpayer account data
would be shortened from a weekly to a daily basis, which will improve the timeliness and
accuracy of this information.
The IRS informed us that it plans to add additional remediation actions to the FFMIA plan
related to the CADE 2 strategy when the timetable for implementation of the CADE 2 strategy is
finalized. Until the IRS updates its FFMIA remediation plan with actions related to the CADE 2
strategy, we will be unable to fully assess its overall progress in resolving its noncompliance.
Our review also identified that the IRS continues to experience difficulties in developing
resource estimates for remediation actions related to information security. We reported in two
prior audits 5 that some resource estimates related to information security were unsupported and
based on outdated information. We continued to find similar issues in our current review of the
IRS’ September 30, 2009, FFMIA remediation plan. Complete and accurate information related
to the IRS’ remediation actions is critical to ensuring the IRS will achieve full compliance with
the FFMIA.


4
  In January 2010, we initiated an audit focusing on the CADE 2 strategy entitled, Review of the CADE 2 Prototype
Activities (Audit Number 201020004).
5
  The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As of
December 31, 2006 (Reference Number 2007-10-077, dated May 21, 2007) and The Internal Revenue Service’s
Federal Financial Management Improvement Act Remediation Plan As of December 31, 2008 (Reference Number
2009-10-094, dated July 30, 2009).
                                                                                                          Page 3
                    Measurable Progress Has Been Made in Addressing Federal
                            Financial Management Improvement Act
                     Noncompliance; However, Significant Challenges Remain



Intermediate Target Dates Were Extended for Some Actions
During the period January 1, 2009, through September 30, 2009, the IRS reported that it:
    •   Added 2 remedial actions to the 41 open custodial remedial actions in its
        December 31, 2008, remediation plan.
    •   Completed 13 remedial actions, leaving 30 open remedial actions in its
        September 30, 2009, remediation plan.
Each of the 30 remedial actions had an intermediate target date that extended more than 3 years
from the initial determination that IRS financial management systems were not in substantial
compliance with the FFMIA. As required, the IRS obtained concurrence from the Office of
Management and Budget to extend its corrective actions beyond the 3-year limitation.
Our review of the 30 open remediation actions indicated that the IRS did not miss any
intermediate target dates. However, the IRS did extend intermediate target dates related to two
of the open actions. These intermediate target date extensions varied from 3 to 11 months.
Although the IRS has reasonable explanations for the extended intermediate target dates, missing
an intermediate target date results in the IRS extending the intermediate target dates of related
remedial actions. Consequently, the extension of the intermediate target dates of these two
remedial actions, while necessary, does put the IRS further behind on resolving its
noncompliance.
In addition, we previously reported 6 that the IRS was unable to promptly identify when it had
removed open findings and recommendations or ensure all findings and recommendations were
accounted for in its remediation plan. We recommended that the IRS strengthen procedures for
reviewing plans for completeness and develop a comprehensive system for tracking the status of
findings and recommendations.
Although the IRS declined to fully implement our recommendations and did not develop a
comprehensive system for tracking findings and recommendations, we found that it has
improved the documentation it maintains regarding the status of findings and recommendations.
In addition, we did not identify any exceptions of findings and recommendations not being
addressed in the IRS’ September 30, 2009, remediation plan. Although this enhanced
documentation represents a significant positive step, we continue to believe that implementing a
centralized tracking system would further enhance the transparency of the FFMIA process and
allow the IRS to more quickly provide information to stakeholders regarding the status of any
FFMIA-related findings and recommendations. Because the IRS has improved its recordkeeping
for the FFMIA remediation plan, we are not making an additional recommendation on this issue.


6
 The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As of
December 31, 2008 (Reference Number 2009-10-094, dated July 30, 2009).
                                                                                                      Page 4
                       Measurable Progress Has Been Made in Addressing Federal
                               Financial Management Improvement Act
                        Noncompliance; However, Significant Challenges Remain



The Internal Revenue Service Has Experienced Difficulties in
Developing Remediation Actions Related to Information Security
Between January 1, 2005, through September 30, 2009, the IRS has had difficulty in both
developing the comprehensive remedial actions required to resolve noncompliance related to
information security and reliably estimating the resources and time necessary to implement these
remedial actions. Complete and reliable financial information is critical to the IRS’ ability to
accurately report on the results of its operations to both internal and external stakeholders,
including taxpayers. In June 2009, we reported the IRS re-evaluated and substantially revised its
FFMIA remediation plan and canceled 25 actions related to computer security and replaced them
with 39 new expanded actions. 7 The IRS developed these expanded actions to better identify the
comprehensive steps it needs to take to resolve this issue. Although this resulted in a significant
extension of the completion date of some of the actions, it resulted in improved accountability
and improved the usefulness of the plan to stakeholders. Our review of the September 30, 2009,
FFMIA remediation plan did not identify any canceled items relating to information security.
Additional attention is also needed when developing resource estimates for remediation actions
related to information security. As reported in our two prior audits, some resource estimates
related to information security were unsupported and based on outdated information. In our
review of the IRS’ September 30, 2009, FFMIA remediation plan, we continued to find similar
issues. Specifically:
         Five resource estimates totaling $84.3 million were not supported by detailed and
          verifiable documentation such as a description of how and when the estimate was
          developed or a general breakdown of the services, hardware, and software being
          acquired. These five resource estimates related to remediation actions with scheduled
          completion dates ranging from Fiscal Years 2010 through 2014. The IRS was unable to
          provide documentation supporting these estimates and informed us they were
          significantly outdated. During our audit fieldwork, the IRS re-evaluated the estimates
          associated with these actions and informed us that 1) the costs associated with these
          5 resource estimates should actually be $98.3 million, and 2) they plan to update the
          March 2010 remediation plan with this updated information.
         Three actions with completion dates ranging from Fiscal Years 2010 to 2012 had
          resource estimates listed that were $4.3 million more than the support provided by the
          IRS.



7
  In order to provide the IRS with more detailed information regarding the status of its actions relating to computer
and information security weaknesses, we initiated an audit in November 2009 to assess the IRS’ progress in
resolving the vulnerabilities regarding security roles and responsibilities. This review is entitled Review of the Roles
and Responsibilities of Selected Computer Security Material Weaknesses (Audit Number 200920016).
                                                                                                                Page 5
                   Measurable Progress Has Been Made in Addressing Federal
                           Financial Management Improvement Act
                    Noncompliance; However, Significant Challenges Remain



In addition, the September 30, 2009, FFMIA remediation plan contained a preliminary resource
estimate of $69 million for an infrastructure initiative related to contingency planning and
disaster recovery. Although the estimate included costs related to 23 separate sub-tasks, it did
not provide a description of how and when the estimates for the sub-tasks were developed,
include timelines, or prioritize the completion of the sub-tasks identified. IRS management
informed us that these estimates represented very preliminary calculations and advised us that
they plan to update the June 2010 remediation plan with more detailed information, including
costs and intermediate target dates in support of the completion of this initiative. Until the IRS
updates its FFMIA remediation plan with more information regarding this initiative, we will be
unable to fully assess its overall progress in resolving its noncompliance.
Although the amount of documentation maintained by the IRS regarding resource estimates has
improved based on a prior Treasury Inspector General for Tax Administration recommendation,
we believe enhancements are still needed. Specifically, although the IRS now consistently
requires documentation from the Chief Technology Officer supporting information security
resource estimates, it has not developed specific minimum standards outlining the type of
supporting information needed. For example, the supporting documentation we reviewed did not
consistently include a breakdown and explanation of costs such as hardware, software, and
contractor support that are included in the estimate, a general description of how the estimate
was developed, or the date of preparation/last update.
Without appropriate estimates, the remediation actions could be delayed as a result of
insufficient resources being available when needed. Outdated and/or inaccurate cost information
also affects IRS management’s ability to timely and reliably estimate accurate completion dates
for remediation actions. Until the IRS develops and completes the necessary remediation actions
to address all of the Government Accountability Office’s open findings and recommendations,
the IRS will continue to be noncompliant with the FFMIA.

Recommendations
Recommendation 1: The CFO, in coordination with the Chief Technology Officer, should
ensure that incomplete and unsupported information identified during our review of the IRS’
September 30, 2009, FFMIA remediation plan is appropriately updated in future remediation
plans.
       Management’s Response: The IRS agreed with this recommendation and stated that
       its March 31, 2010, FFMIA remediation plan has been reconciled and annotated with the
       authoritative supporting documentation.
Recommendation 2: The CFO should develop standard documentation guidelines for
estimates reported in the IRS remediation plan. Specifically, the supporting documentation
should include the following minimum information: 1) a breakdown and explanation of costs


                                                                                            Page 6
                  Measurable Progress Has Been Made in Addressing Federal
                          Financial Management Improvement Act
                   Noncompliance; However, Significant Challenges Remain



such as hardware, software, and contractor support that are included in the estimate; 2) a general
description of how the estimate was developed; and 3) the date of preparation and last update.
       Management’s Response: The IRS agreed with this recommendation and plans to
       develop standardized guidance that requires more specific documentation standards for
       remediation plan estimates, including a breakdown and explanation of estimated costs for
       hardware, software, and contractor support costs, as well as required dates indicating
       when the last estimates were calculated.




                                                                                            Page 7
                     Measurable Progress Has Been Made in Addressing Federal
                             Financial Management Improvement Act
                      Noncompliance; However, Significant Challenges Remain



                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to report to Congress, as required by the FFMIA, 1 any
instances of and reasons for missed intermediate target dates established in the IRS’ FFMIA
remediation plan for the period January 1, 2009, through September 30, 2009. 2 In addition, we
evaluated the effectiveness of the remedial actions taken by the IRS during the period
January 1, 2005, through September 30, 2009, in resolving the noncompliance reported in the
FFMIA remediation plans and assessed the challenges associated with achieving substantial
compliance. To accomplish our objectives, we:
I.      Gained an understanding of the requirements of the FFMIA, including Office of
        Management and Budget and Department of the Treasury guidance for compliance with
        the Act.
II.     Determined whether the IRS’ remediation plan was consistent with Government
        Accountability Office recommendations from prior IRS financial audits and related
        financial management reports.
III.    Determined whether 1) the IRS missed any intermediate target dates established in its
        remediation plan, 2) intermediate target dates were extended without sufficient
        documentation to support the revised dates, and 3) proper approval was obtained for
        remedial actions extending more than 3 years.
        A. Verified that all remedial actions had intermediate target dates established.
        B. Identified instances when the IRS did not meet the intermediate target dates.
        C. If instances of missed dates were identified, inquired of IRS officials the reason the
           IRS did not meet the intermediate target date.
        D. Identified any intermediate target dates extending more than 3 years since the
           recommendation was reported.
        E. If instances of intermediate target dates extending longer than 3 years were identified,
           verified that the approval was requested and granted from the Office of Management
           Budget.



1
 Pub. L. No. 104-208, 110 Stat. 3009.
2
 Our previous three FFMIA reports to Congress were annual reviews of the IRS’ actions as of December 31st (2008,
2007, and 2006). This report has changed the period of review to the end of the fiscal year (September 30, 2009).
                                                                                                         Page 8
                 Measurable Progress Has Been Made in Addressing Federal
                         Financial Management Improvement Act
                  Noncompliance; However, Significant Challenges Remain



IV.   Determined whether 1) the IRS remediation plan had established resource needs for
      remedial actions, and 2) the resources presented were consistent with supporting
      documentation.
      A. Verified that resource requirements were identified for all remedial actions.
      B. Obtained budget information.
      C. Traced remediation plan resources to budget information.
      D. Interviewed the functional financial plan managers associated with all significant cost
         estimates.
V.    Determined whether the IRS had taken adequate corrective actions on prior reported audit
      findings related to the FFMIA remediation plan.
      A. Identified prior open Treasury Inspector General for Tax Administration audit
         findings and corresponding management responses concerning corrective actions that
         should have been completed by the time of our audit.
      B. Confirmed through discussions/observations that actions had been completed.
      C. Evaluated the actions taken by the IRS to improve its tracking of open FFMIA
         material weaknesses (in evaluating the IRS’ 2008 FFMIA Remediation Plan, the
         Treasury Inspector General for Tax Administration identified that the IRS was unable
         to reliably determine the current status of all open issues causing its noncompliance
         with the FFMIA).
VI.   Determined whether the IRS’ remedial actions from January 1, 2005, through
      September 30, 2009, resulted in measurable progress resolving FFMIA noncompliance
      and assessed the challenges associated with achieving substantial compliance.
      A. Identified the number of FFMIA material weaknesses that were closed and new
         FFMIA material weaknesses that were added during the period under review.
      B. Determined the number of open, added, extended, canceled, and completed remedial
         actions for the period January 1, 2005, through September 30, 2009, in order to
         evaluate the progress of the remedial actions in resolving FFMIA noncompliance.
      C. Interviewed key IRS business unit stakeholders regarding the status of applicable
         in-process remediation actions and the risks associated with the outstanding material
         weaknesses.




                                                                                         Page 9
                  Measurable Progress Has Been Made in Addressing Federal
                          Financial Management Improvement Act
                   Noncompliance; However, Significant Challenges Remain



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices for tracking remediation actions implemented due to identified material weaknesses.
We evaluated these controls by interviewing management and reviewing applicable
documentation.




                                                                                        Page 10
                 Measurable Progress Has Been Made in Addressing Federal
                         Financial Management Improvement Act
                  Noncompliance; However, Significant Challenges Remain



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Michele N. Strong, Lead Auditor
Mark A. Judson, Senior Auditor
Dana Karaffa, Evaluator




                                                                                     Page 11
                 Measurable Progress Has Been Made in Addressing Federal
                         Financial Management Improvement Act
                  Noncompliance; However, Significant Challenges Remain



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CTO:CIO
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Financial Officer for Corporate Planning and Internal Control
OS:CFO:CPIC
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, End-User Equipment and Services
OS:CTO:EU
Associate Chief Information Officer, Enterprise Networks OS:CTO:EN
Acting Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Stakeholder Management Division OS:CTO:SP:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO




                                                                                  Page 12
                  Measurable Progress Has Been Made in Addressing Federal
                          Financial Management Improvement Act
                   Noncompliance; However, Significant Challenges Remain



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $18.3 million. This measure represents the difference
    between the resource estimates reported in the IRS’ September 30, 2009, FFMIA remediation
    plan and the supporting documentation provided by the IRS (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported estimated resources in its September 30, 2009,
FFMIA remediation plan, we compared the estimated resources to the supporting documentation
and interviewed selected IRS personnel. We found that 5 resource estimates totaling
$84.3 million were not supported by detailed and verifiable documentation such as a description
of how and when the estimate was developed or a general breakdown of the services, hardware,
and software being acquired. The IRS informed us these estimates were significantly outdated.
During our audit fieldwork, the IRS re-evaluated the estimates associated with these actions and
determined the costs associated with these 5 resource estimates should actually be
$98.3 million. The IRS was also able to provide detailed and verifiable documentation in
support of this estimate. In order to calculate this outcome measure, we determined that the
difference between the estimate in the September 30, 2009, FFMIA remediation plan and the
updated estimate was $14.0 million ($98.3 million – $84.3 million = $14.0 million). We also
identified that 3 actions with completion dates ranging from Fiscal Years 2010 to 2012 had
estimates listed that were $4.3 million more than the support provided by the IRS.
The total measure reported was calculated by adding these 2 differences together
($14.0 million + $4.3 million = $18.3 million).




                                                                                          Page 13
                    Measurable Progress Has Been Made in Addressing Federal
                            Financial Management Improvement Act
                     Noncompliance; However, Significant Challenges Remain



                                                                                          Appendix V

        Schedule of the Internal Revenue Service’s
       Remediation Actions From 2005 Through 2009

               Table 1: Status of Remedial Actions From January 1, 2005,
                              Through September 30, 2009
                             Open
                           Remedial                                                           Open
                           Actions at        New                                            Remedial
                           Beginning       Remedial        Canceled        Completed        Actions at
 Remediation Plan           of Plan         Actions        Remedial        Remedial        End of Plan
       Period               Period          Added           Actions         Actions          Period
  January 1, 2005 –
 December 31, 2005              12              67              1               40             38
  January 1, 2006 –
 December 31, 2006              38              61             11               37             51
  January 1, 2007 –
 December 31, 2007              51              6               2               20             35
  January 1, 2008 –
 December 31, 2008              35              50             26               18             41
  January 1, 2009 –
 September 30, 2009             41              2               0               13             30
Source: IRS remediation plans issued from December31, 2005, through September 30, 2009.




                                                                                                Page 14
     Measurable Progress Has Been Made in Addressing Federal
             Financial Management Improvement Act
      Noncompliance; However, Significant Challenges Remain



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 15
Measurable Progress Has Been Made in Addressing Federal
        Financial Management Improvement Act
 Noncompliance; However, Significant Challenges Remain




                                                    Page 16
Measurable Progress Has Been Made in Addressing Federal
        Financial Management Improvement Act
 Noncompliance; However, Significant Challenges Remain




                                                    Page 17
